No. 19-648
IN THE

Supreme Court of the United States

d

CACI PREMIER TECHNOLOGY, INC .,
Petitioner,

—v.—

SUHAIL NAJIM ABDULLAH AL SHIMARI ; SALAH HASAN
NUSAIF JASIM AL -EJAILI ; ASA’AD HAMZA HANFOOSH AL -ZUBA’E ,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FOURTH CIRCUIT

SUPPLEMENTAL BRIEF OF RESPONDENTS
PETER A. NELSON
MATTHEW FUNK
JARED S. BUSZIN
JEFFREY C. SKINNER
PATTERSON BELKNAP WEBB
& TYLER LLP
1133 Avenue of the Americas
New York, New York 10036
JEENA SHAH
CUNY SCHOOL OF LAW
2 Court Square
Long Island City, New York 11101

BAHER AZMY
Counsel of Record
KATHERINE GALLAGHER
CENTER FOR CONSTITUTIONAL
RIGHTS
666 Broadway, 7th Floor
New York, New York 10012
(212) 614-6464
bazmy@ccrjustice.org
SHEREEF HADI AKEEL
AKEEL & VALENTINE , P.C.
888 West Big Beaver Road
Troy, Michigan 48084-4736

Counsel for Respondents

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES ....................................... ii
INTRODUCTION ....................................................... 1
ARGUMENT ............................................................... 4
I.

THIS CASE IS AN UNSUITABLE
VEHICLE TO ADDRESS THE ISSUES
RAISED BY THE UNITED STATES .............. 4

II.

THE UNITED STATES RECOGNIZES
THIS APPEAL DOES NOT IMPLICATE
THE UNITED STATES’ ABILITY TO
APPEAL SOVEREIGN IMMUNITY
DENIALS ......................................................... 9

III.

THERE IS NO REASON TO DEFER
DECISION ON THIS PETITION ................. 11

CONCLUSION ......................................................... 12

ii
TABLE OF AUTHORITIES
Page(s)
Cases
Al Shimari v. CACI Premier Tech., Inc.,
679 F.3d 205 (4th Cir. 2012) .................................. 3
Campbell-Ewald Co. v. Gomez,
136 S. Ct. 663 (2016) ...................................... 4, 6, 9
Johnson v. Jones,
515 U.S. 304 (1995) ................................................ 5
McMahon v. Presidential Airways, Inc.,
502 F.3d 1331 (11th Cir. 2007) .............................. 8
Will v. Hallock,
546 U.S. 345 (2006) ................................................ 6
In re World Trade Center Disaster Site
Litigation,
521 F.3d 169 (2d Cir. 2008) .................................... 8
Statutes
28 U.S.C. § 1350......................................................... 11

1
INTRODUCTION
The United States agrees with Plaintiffs (Respondents) that the Fourth Circuit correctly held that it
lacked jurisdiction to hear private contractor CACI
Premier Technology, Inc.’s (“CACI”) interlocutory appeal of the district court’s denial of CACI’s motion to
dismiss on “derivative sovereign immunity” grounds.
The United States also agrees with Plaintiffs that, contrary to CACI’s (Petitioner) position, derivative sovereign immunity is a defense to liability and not an immunity from suit and thus can never be subject to interlocutory appeal under the collateral order doctrine.
But Plaintiffs strongly disagree with the United
States’ suggestion that the Court grant the petition because of what it characterizes as a “tension” in lower
court approaches regarding the appealability of various claims of “derivative immunity” by private contractors. Plaintiffs also vehemently disagree that the
Court should defer a decision on this petition until after it decides Nestlé USA, Inc. v. Doe, cert. granted, No.
19-416 (July 2, 2020), and Cargill, Inc. v. Doe, cert.
granted, No. 19-453 (July 2, 2020)—appeals that do
not in any way implicate the narrow question presented in this case regarding interlocutory appellate
jurisdiction.
For several reasons, the Court should deny certiorari now and send this case back to the district court
for further proceedings.
First, the Fourth Circuit correctly held that the district court’s order falls outside the collateral order doctrine because any entitlement CACI might have to derivative sovereign immunity turns on disputed factual

2
questions that are intertwined with the merits regarding the company’s compliance with the law and its government contract. The abstract questions that the
United States asks this Court to address—whether all
denials of government contractors’ derivative sovereign immunity motions are categorically barred, as a
matter of law, from interlocutory appeal, and how to
define the nature of “derivative sovereign immunity”—
are not presented by the decision below. Addressing
those questions will have no practical effect on further
proceedings in this case beyond additional delay.
Moreover, because the United States acknowledges
that the decision below is only, at most, in “tension”
with some decisions of other courts involving other
forms of contractors’ immunity claims, U.S. Br. 5–6,
18, 1 it does not present the kind of circuit split that
warrants this Court’s attention. Id. at 18 (conceding
that these cases “do not present a perfectly square
split”).
Second, in its petition, CACI argued that the need
for review here is “amplified” by a purported circuit
split concerning the “antecedent question” of the
United States’ ability to take interlocutory appeals of
denials of sovereign immunity motions. Pet. Br. 15–17.
Critically, however, the United States correctly observes that this separate issue was not presented in
the appeal below and is not now before the Court in
this case. U.S. Br. 13–14 n.3 (“[T]his case would not be
an appropriate vehicle in which to address whether
the federal government has a right to immediately appeal orders denying motions to dismiss on the ground
of federal sovereign immunity.”). Because the United
1

Brief for the United States as Amicus Curiae (Aug. 26, 2020).

3
States would have a strong interest in resolution of
any substantial and properly presented question concerning its own ability to take appeals, its view that
this petition is not the proper occasion to address such
a question deserves substantial weight.
Finally, because the petition should be denied, the
Court should not hold it in abeyance pending decision
on cases presenting completely different issues. Doing
so would only serve to reward CACI with the further
delay it sought by filing this improper appeal on the
eve of trial. CACI’s improvident interlocutory appeal
caused the last-minute cancelation of a trial that had
finally been scheduled after more than eleven years of
litigation, seventeen unsuccessful dispositive motions
by CACI, and a prior improper interlocutory appeal by
CACI raising the same issue presented here. 2 This
Court should not exacerbate the long delay Plaintiffs—
three Iraqi citizens who were detained, tortured, and
abused in 2003 at Abu Ghraib at the hands of military
police acting under the direction of CACI employees—
have faced by implementing a de facto stay of this litigation while it resolves separate appeals that have no
bearing on the issues immediately presented by
CACI’s appeal.
The issues at stake in this litigation—whether
CACI can be held liable for conspiring with and aiding
and abetting low-level members of the military, some
of whom were court-martialed, for conduct the military, the political branches, and the international
For details on CACI’s first improper interlocutory appeal, see Al
Shimari v. CACI Premier Tech., Inc., 679 F.3d 205 (4th Cir. 2012)
(en banc).

2

4
community condemned in Abu Ghraib—are weighty.
The Court should deny CACI’s petition for certiorari
and return the case to the district court, which is best
positioned to oversee further proceedings in light of
the pendency of Nestlé and Cargill and to consider, in
the first instance, what impact (if any) the Court’s rulings in those cases would have on this litigation.
ARGUMENT
I.

THIS CASE IS AN UNSUITABLE VEHICLE
TO ADDRESS THE ISSUES RAISED BY
THE UNITED STATES

The United States agrees that CACI is not entitled
to the defense of “derivative sovereign immunity” if
Plaintiffs prevail on the merits of their claims that
CACI violated federal and international law and the
Government’s explicit instructions. The United States
also agrees that CACI’s claimed defense is “coterminous with the merits,” a fact that necessarily precludes
an interlocutory appeal. U.S. Br. 14; see CampbellEwald Co. v. Gomez, 136 S. Ct. 663, 672 (2016). The
United States further agrees that the Fourth Circuit
was ultimately correct in holding that it lacked jurisdiction to hear CACI’s appeal, though it suggests that
the court below should have reached that conclusion
on different grounds that it did not consider. U.S. Br.
5.
Against this backdrop, the United States argues
that certiorari should nevertheless be granted to declare as an abstract matter of law, and contrary to
CACI’s position, that “derivative sovereign immunity”
is categorically unsuitable for interlocutory appeal under the collateral order doctrine, and to resolve

5
supposed tensions among lower courts over the “nature of the ‘derivative sovereign immunity’ doctrine.”
U.S. Br. 18–19.
The issues raised by the United States provide no
basis for review here, for two reasons.
1. Resolving the abstract questions that the United
States urges this Court to consider would have no
practical effect on this case. Whether or not denials of
contractors’ derivative sovereign immunity motions
can ever be considered collateral orders, and regardless of whether the defense is accurately termed an
“immunity,” immediate appeal would nonetheless be
unavailable here because, as the Fourth Circuit observed, CACI’s claimed entitlement to derivate sovereign immunity is intertwined with the merits of Plaintiffs’ claims that CACI engaged in unlawful conduct in
violation of its government contracts. As such, there is
no doubt the district court’s denial of CACI’s motion to
dismiss on derivative sovereign immunity grounds
fails a threshold requirement governing interlocutory
appeals under the collateral order doctrine. See Johnson v. Jones, 515 U.S. 304, 310–11 (1995).
The United States nevertheless argues that “the order here did not come within the category of orders
that defer resolution of a ‘derivative sovereign immunity’ defense until disputed facts have been determined
at trial” because, in its view, the district court’s dismissal decision turned on a pure question of law regarding
the United States’ own federal sovereign immunity
from suit. U.S. Br. 15. This interpretation of the decisions below ignores the Fourth Circuit’s independent
analysis of the factual record and the alternative, factdependent bases for the district court’s decision to

6
deny CACI derivative sovereign immunity. The Fourth
Circuit concluded that it lacked jurisdiction to hear
CACI’s interlocutory appeal because of the existence of
disputed material facts going to both CACI’s “derivative sovereign immunity” defense and the merits of
Plaintiffs’ claims. Pet. App. 5a. The United States’ interpretation also ignores the fact that the district
court’s opinion on CACI’s derivative sovereign immunity motion came shortly after the district court had denied CACI’s motion for summary judgment due to genuine disputes over material facts that underlie both
the immunity defense and the merits, and that the district court considered these same fact-based issues in
rejecting CACI’s derivative sovereign immunity defense. See Resp. Br. 21 (quoting Pet. App. 5a); Pet. App.
340a–41a (citing Campbell-Ewald). 3
For an order to fall within the collateral order doctrine it must be “completely separate from the merits.”
Will v. Hallock, 546 U.S. 345, 349 (2006). The United
States acknowledges that CACI’s assertion of derivative sovereign immunity cannot meet this requirement
because determining whether CACI acted lawfully is
essential to both CACI’s entitlement to derivative sovereign immunity under Campbell-Ewald and the merits of Plaintiffs’ claims. U.S. Br. 14. (observing that “if
[Plaintiffs] were to prove the merits of their liability
claims, then CACI would not be entitled to ‘derivative
sovereign immunity’—and if CACI were to show its

Plaintiffs also disagree with the United States’ contention that
CACI did not waive its arguments due to invited error, U.S. Br.
21–22, for the reasons set forth in Respondents’ Brief in Opposition. Resp. Br. 28–30.

3

7
defense was valid, then [Plaintiffs] would necessarily
fail to prove the merits”).
Accordingly, though the United States quibbles
with the Fourth Circuit’s holding that CACI’s appeal
turned on disputed facts rather than an abstract question of law, it is of no consequence. Even if this Court
were to review the abstract legal issues raised by the
United States, it would not change the Fourth Circuit’s
correct conclusions regarding the disputed fact issues
at the heart of CACI’s defense and the merits of Plaintiffs’ claims. Ultimately, because there is no dispute
that the availability of “derivative sovereign immunity” for CACI is intertwined with the merits, the district court’s order denying CACI’s derivative sovereign
immunity motion cannot be an appealable collateral
order.
2. The decision below does not present a circuit
split that warrants this Court’s review. The United
States argues that the Court should grant review to
address a number of pre-Campbell-Ewald lower court
contractor derivative immunity rulings, U.S. Br. 16–
20, but those rulings are not in conflict. As the United
States concedes, the decision below at most reflects
some “tension” with decisions from other circuits regarding other forms of contractor immunity. U.S. Br.
18.
The United States accepts that there is not “a perfectly square split” between the lower courts on the issue of whether an order denying derivative sovereign
immunity is immediately appealable under the collateral order doctrine. U.S. Br. 18. Instead of a circuit
split, the United States says that these cases display a
“substantial tension in the lower courts’ approach to

8
the appealability of orders denying attempts to invoke
derivatively, in one form or another, the government’s
own immunity.” Id.
In particular, both the United States and CACI
point to two contractor cases in which interlocutory appeals were allowed to argue that there is division
among the lower courts on this issue: McMahon v.
Presidential Airways, Inc., 502 F.3d 1331 (11th Cir.
2007) and In re World Trade Center Disaster Site Litigation, 521 F.3d 169 (2d Cir. 2008). However, as the
United States acknowledges, U.S. Br. 18, these cases
involved different types of derivative immunity claims
than the one CACI has invoked here—derivative Feres
immunity in McMahon, 502 F.3d at 1339, and derivative Stafford Act immunity in In re World Trade Center
Disaster Site Litigation, 521 F.3d at 192–93. Because
these cases involved different kinds of immunity and
each entailed application of the Cohen factors to the
particular facts of the cases, there is no circuit split.
See Resp. Br. 25–27.
The United States nonetheless argues that the
“tension” between these cases warrants review—”at
least in conjunction with the related disagreement
among the courts of appeals” concerning whether “derivative sovereign immunity” is a defense to liability
or immunity from suit. U.S. Br. 18–19. While Plaintiffs
agree with the United States that derivative sovereign
immunity should always be viewed only as a defense
to liability, that was not the basis for the Fourth Circuit’s opinion in this case and is not at issue in this
appeal. Instead, the panel concluded that, even if derivative sovereign immunity was among the narrow
class of orders so significant that it could be immediately appealable, in this case “our review is barred

9
here because there remain continuing disputes of material fact with respect to CACI’s derivative sovereign
immunity defenses.” Pet. App. 4a–5a. Moreover, the
United States identifies no decisions manifesting “tension” over the “nature” of derivative sovereign immunity post-dating this Court’s opinion in CampbellEwald, which, as the United States explains, offers
considerable clarification of that issue. U.S. Br. 9–10.
Unless a genuine conflict breaks out over the issue in
the wake of Campbell-Ewald, there is no urgency in
addressing it, and especially not in a case where the
lower court had no occasion to address the issue.
If the Court wishes to address the abstract legal
question on which the United States focuses—whether
so-called derivative sovereign immunity is a defense or
an immunity—it should wait for a case that actually
presents that question or creates an actual circuit split
on that issue.
II.

THE UNITED STATES RECOGNIZES THIS
APPEAL DOES NOT IMPLICATE THE
UNITED STATES’ ABILITY TO APPEAL
SOVEREIGN IMMUNITY DENIALS

In its petition, CACI repeatedly attempts to tie, if
not conflate, the district court’s denial of its motion to
dismiss on “derivative sovereign immunity” grounds
with the separate question of whether denial of a motion to dismiss by the United States on sovereign immunity grounds can ever be treated as a collateral order. On pages 15–17 of its petition, CACI describes
what it characterizes as a circuit split on the interlocutory appealability of federal sovereign immunity denials. CACI then argues that “[t]here should be a nationally uniform rule governing the appealability of

10
rulings denying claims of sovereign immunity and derivative sovereign immunity.” Id. at 17. Its petition is
based in part on this argument: that the Court “should
grant review to ensure that the availability of an immediate appeal for government contractors—and for
the government itself—does not turn on the plaintiff’s
strategic selection of the litigation forum.” Id. (emphasis added); see Pet. Reply Br. 9 (referring to the United
States’ entitlement to immediate appeal of a sovereign
immunity denial as an “antecedent question” to the
availability of immediate appeal for CACI).
The United States rejects this ground for review,
making clear in its response that “this case would not
be an appropriate vehicle in which to address whether
the federal government has a right to immediately appeal orders denying motions to dismiss on the ground
of federal sovereign immunity.” U.S. Br. 13–14 n.3
(emphasis added). Plaintiffs agree. See Resp. Br. 23
(“CACI’s citations to cases that concern federal sovereign immunity are inapposite as they have no bearing
on the derivative sovereign immunity defense at issue
in this case.”).
If anyone has an interest in resolving a case that
genuinely presented an important, unresolved issue
over appeals by the United States, it would be the
United States itself. Given that the United States sees
no basis for review of that issue in this case, it is apparent that any urgency or importance that CACI ascribes to the question of federal sovereign immunity
from suit is not raised or implicated in this petition.

11
III. THERE IS NO REASON TO DEFER DECISION ON THIS PETITION
Finally, there is no reason to defer decision on this
petition until after the Court decides Nestlé and Cargill. Those cases involve issues relating to the Alien
Torts Statute, 28 U.S.C. § 1350, that are outside the
scope of the narrow question regarding appellate jurisdiction presented by this petition, even if the outcomes
of those cases might have some bearing on proceedings
in this case.
In any event, the district court is the appropriate
venue for determining whether and how this case
should proceed in light of the pendency of Nestlé and
Cargill. And if this Court decides Nestlé and Cargill
before this case goes to trial, the district court would
be well-positioned to apply those decisions to this case
in the first instance, to the extent necessary. Particularly because this case is in an interlocutory posture,
there is no need for this Court to address matters that
the district court can and should handle in the first instance.
Furthermore, because deferring decision on the petition would only serve to further delay resolution of
this litigation, it would impose a considerable burden
on Plaintiffs. The torture and abuse suffered by Plaintiffs occurred more than 16 years ago, and this case
has been pending for more than 12 years. CACI’s (second) improvident appeal denied Plaintiffs the opportunity to have the legality of CACI’s conduct at Abu
Ghraib finally resolved. That time is long past due,
and the Court should not exacerbate the prejudice to
Plaintiffs wrought by this appeal by delaying its decision on CACI’s petition for certiorari any longer.

12
Indeed, holding the petition when even the United
States agrees there is no appellate jurisdiction unfairly rewards CACI by providing it the relief—further
delay of proceedings in the district court—to which it
was never entitled.
CONCLUSION
For the reasons above and set forth in Respondents’
Brief in Opposition, CACI’s petition for a writ of certiorari should be denied.

Respectfully submitted,
BAHER AZMY
Counsel of Record
KATHERINE GALLAGHER
CENTER FOR CONSTITUTIONAL
RIGHTS
666 Broadway, 7th Floor
New York, NY 10012
(212) 614-6464
bazmy@ccrjustice.org
PETER A. NELSON
MATTHEW FUNK
JARED S. BUSZIN
JEFFREY C. SKINNER
PATTERSON BELKNAP WEBB &
TYLER LLP
1133 Ave. of the Americas
New York, NY 10036

13
JEENA SHAH
CUNY SCHOOL OF LAW
2 Court Square
Long Island City, NY 11101
SHEREEF HADI AKEEL
AKEEL & VALENTINE, P.C.
888 West Big Beaver Road
Troy, MI 48084-4736
Counsel for Respondents
September 8, 2020

